                   E X E CUTIVE S U M M A R Y 


O BJECTIVE

Th e obje ctive of th is audit w as to re vie w th e SocialSe curity Adm inis tration’       s
(SSA ) Fis calYe ar (FY)19 9 6 AnnualRe port on Continuing D is abil          ity Re vie w s (CD R)
and de te rm ine w h e th e r SSA h ad m e t th e CD R re porting re q uire m e nts s e t forth by
Congre s s .

BACKGROUND

Th e purpos e of th e pe riodic CD R is to de te rm ine w h e th e r a dis able d be ne ficiary is
s til
    lm e dical ly el
                   igibl
                       e to re ce ive be ne fits . Re ce ntl
                                                           y, unde r s e parate A cts , Congre s s
h as m andate d th at s pe cific CD Rs and/or m e dicalre vie w s b e pe rform e d in addition
to SSA ’   s ongoing pe riodic CD R w ork l  oad. In s om e of th e s e A cts (s e e A ppe ndix
A ), additionalfunding w as provide d to conduct th e s e re vie w s . In addition, SSA is
re q uire d to provide Congre s s w ith an annuals tatus re port on th e num be r of CD Rs
pe rform e d by th e A ge ncy.

Since 19 9 4, a num be r of A cts h ave re q uire d CD Rs and/or re de te rm inations for
                  ity popul
s pe cific dis abil       ations . Th e congre s s ionaly m andate d re vie w s incl
                                                        l                           ude :

   • at l e as t 100,000 CD Rs annual        l
                                             y on Suppl   e m e ntalSe curity Incom e (SSI)
     re cipie nts for th e pe riod O ctobe r 19 9 5 th rough Se pte m be r 19 9 8;
   • re de te rm inations by January 1, 19 9 7 for re cipie nts for w h om drug addiction
     and/or al    coh ol  is m (D A A )is a contributing factor m ate rialto th e finding of
     dis abil  ity;
   • re de te rm inations for ch il   dre n w ith a dis ability bas e d on th e com parabl
                                                                                         e
     s e ve rity s tandard and/or m al     adaptive be h avior;
   • re de te rm inations for al     lSSIre cipie nts attaining age 18;
   • CD Rs for al     llow birth w e igh t babie s ;and
   • CD Rs at l    e as t once e ve ry 3 ye ars for al  lSSIre cipie nts unde r age 18 if not
     pe rm ane ntl   y dis abl  e d.

Th e A cts provide d m ore th an $4 bil     l
                                            ion in additionalfunds to SSA for
FYs 19 9 6 th rough 2002 for th e purpos e of conducting th e s e m andate d re vie w s .
O ne of th e A cts als o e xpands th e annualre porting re q uire m e nt to incl
                                                                               ude th e
am ount of m one y s pe nt on CD Rs , th e num be r of re vie w s conducte d, th e re s u l
                                                                                          ts of
s uch re vie w s and th e e s tim ate d s avings .



                                                 i
RESULTS O F REVIEW

• A M O UNT SPENT CO ND UCTING CD Rs

  Th e FY 19 9 6 AnnualRe port on CD Rs did not dis cl        os e th e am ount s pe nt by
SSA
  during th e ye ar to pe rform th e CD Rs . Th e Contract w ith A m e rica Advance m e nt
  A ct s pe cifical
                  ly re q uire s th is inform ation to be re porte d by th e Com m is s ione r of
  SocialSe curity.

     Provide d w ith a s e cond opportunity to dis cl
                                                    os e actualCD R cos ts , SSA did not
     m e ntion th e FY 19 9 6 CD R cos ts during a Se pte m be r 25, 19 9 7 h e aring be fore
     Congre s s .

• CD R RESULTS BY PROGRAM

   Alth ough re q uire d to pre s e nt th e re s u l
                                                   ts of CD Rs by program , SSA provide d
   be ne fit ce s s ation and continuing e l  igibil ity inform ation onl
                                                                        y in aggre gate form ,
   l
   um ping dis abil    ity ins urance (D I)and SSIs tatis tics toge th e r both in th e  te xt
and th e accom panying tabl         e.

     SSA provide d additionalCD R inform ation by program in its Septe m be r 19 9 7
     te s tim ony, noting both th e initialce s s ations and e s tim ate d te rm inations b y D I,
     SSI, and concurre nt program s . It is uncl     e ar w h y th is inform ation w as le ft out
of
     th e FY 19 9 6 AnnualRe port.

• O TH ER USEFULINFO RM A TIO N

     Alth ough SSA ’ s FY 19 9 5 AnnualRe port on CD Rs to Congre s s m e ntione d D I
     program s avings of $6 pe r $1 s pe nt on CD Rs , SSA did not m ak e a s im il
                                                                                  ar
     com paris on in its FY 19 9 6 AnnualRe port. H ow e ve r, our ow n anal
                                                                           y s is of th e
     AnnualRe port s h ow s th e program s avings coul d be as m uch as $12:$1 in
     FY 19 9 6.

     Th e FY 19 9 6 AnnualRe port on CD Rs dis cl       os e d th e s tatus of th e CD Rs on l ow
     birth w e igh t babie s ;h ow e ve r, no inform ation w as provide d on w h e th e r any
     w ork h ad be gun on th e oth e r D I/SSIbe ne ficiarie s re q uire d by l e gis l
                                                                                      ation to
     unde rgo a CD R or re de te rm ination.

     Th e FY 19 9 6 AnnualRe port on CD Rs did not dis tinguis h th e num be r of m ail er
     CD Rs from th e num be r of ful lm e dicalCD Rs pe rform e d. Th is inform ation w ould
     be us e fulin dis cl
                        os ing h ow SSA is m e e ting its CD R goal
                                                                  s.


                                                  ii
   Providing inform ation on th e re m aining CD R back l    og in th e A nnualRe port on
   CD Rs coul d als o provide Congre s s w ith s om e indication of SSA ’     s progre s s to
   date and w h e th e r th e back l                        y re duce d ove r tim e .
                                   og is b e ing ade q uate l

RECO M M END A TIO NS

In pre paring future A nnualRe ports on CD Rs , w e re com m e nd th at SSA :

   • incl
        ude s pe cific inform ation re l
                                       ate d to th e annualcos t of conducting CD Rs ;

   • provide m ore s pe cific inform ation on th e s tatus of CD R ce s s ations and
     continue d e l
                  igibil
                       ity, including th e s pe cific num be r of pe riodic D I, SSI, and
     concurre nt CD Rs pe rform e d, initiall
                                            y ce as e d, re cons ide re d, and appe ale d;
     and

   • cons ide r incl
                   uding oth e r inform ation w h ich w oul   d be us e fulto Congre s s in
     th e A nnualRe port on CD Rs , s uch as program cos t s avings ratios , th e s tatus
     of SSICD Rs , th e num be r of CD R m ail  e rs us e d, and CD R back l    og
     inform ation, e ve n th ough th is data is not s pe cifical l
                                                                 y re q uire d.

AGENCY CO M M ENTS A N D O IG RESPO NSE

In re s pons e to our draft re port, SSA agre e d w ith our re com m e ndations and
s tate d th at actions are unde rw ay for im pl   e m e ntation. SSA ’s w ritte n
re s pons e is include d in its e ntire ty as A ppe ndix C. SSA al  s o s ugge s te d a
fe w te ch nicalch ange s . W e agre e d w ith s om e of th e ch ange s and m odifie d
th e re port in th os e are as as appropriate .




                                              iii
                      TA BLE O F CO NTENTS


                                                                                                Page

EXECUTIVE SUM M A RY ..........................................................................i


INTRO D UCTIO N ...................................................................................1


RESULTS O F REVIEW ...........................................................................4


    A M O UNT SPENT CO ND UCTING CD Rs ................................................4


    CD R RESULTS BY PROGRAM ............................................................4


    O TH ER USEFULINFO RM A TIO N FO R CO NSID ERA TIO N..........................7

        Program Cos t Savings ..................................................................7

        SSICD R and Re de te rm ination W ork l
   oad..........................................8

        M ail

            e r Ve rs us Ful
                           lM e dicalCD Rs ....................................................9

        Re m aining CD R Back l
og..............................................................12


RECO M M END A TIO NS .........................................................................13


        Age ncy Com m e nts and O IG Re s pons e ..........................................13


A PPEND ICES

Appe ndix   A - Sum m ary of Re le vant Le gis l
                                               ation
Appe ndix   B - FY 19 9 6 AnnualRe port on CD Rs
Appe ndix   C - SSA ’s Com m e nts
Appe ndix   D - M ajor Re port Contributors
Appe ndix   E - SSA O rganizationalCh art
                                 INTR O D UCTIO N


O BJECTIVE

Th e obje ctive of th is audit w as to re vie w SSA ’  s FY 19 9 6 AnnualRe port on CD Rs
and de te rm ine w h e th e r SSA h ad m e t th e CD R re porting re q uire m e nts s e t forth by
Congre s s .

BACKGROUND

Th e purpos e of th e pe riodic CD R is to de te rm ine w h e th e r a dis able d SSA
be ne ficiary is s til
                     lm e dical
                              ly el
                                  igible to re ce ive be ne fits . Unde r s e parate A cts ,
Congre s s h as m andate d th at s pe cific CD Rs and/or re de te rm inations b e pe rform e d
in addition to SSA ’   s ongoing pe riodic CD R w ork l  oad. In s om e of th e s e A cts ,
additionalfunding h as b e e n provide d to conduct th e s e re vie w s . SSA is re q uire d to
provide Congre s s w ith an annuals tatus re port on th e num be r of CD Rs pe rform e d
by th e A ge ncy.

Alth ough Congre s s m andate d pe riodic D I CD Rs s ince th e e arl      y 19 80s , CD Rs
for SSI re cipie nts w e re not re q uire d untilth e SocialSe curity Inde pe nde nce and
Program Im prove m e nts A ct of 19 9 4 (P.L. 103-29 6).1 Th e A ct re q uire s SSA to:
1) conduct SSIre de te rm inations on at l  e as t one -th ird of individual
                                                                           s attaining
                                                          2
age 18 e ach ye ar during FYs 19 9 6 th rough 19 9 8; and 2)conduct at l        e as t
100,000 CD Rs annual    ly on SSIre cipie nts for th e pe riod O ctobe r 19 9 5 th rough
Se pte m be r 19 9 8.

Th e Contract w ith A m e rica Advance m e nt A ct of 19 9 6 (P.L. 104-121)m andate d
additionalre vie w s , providing th at re de te rm inations b e conducte d by
January 1, 19 9 7 for be ne ficiarie s for w h om D A A is a contributing factor m ate rial
to th e finding of dis ability and w h o tim e ly appe ale d th e ir be ne fit te rm inations
bas e d on D A A . Th is A ct auth orize s m ore th an $4 bil  lion in additionalfunds to
SSA for FYs 19 9 6 th rough 2002 for th e purpos e of conducting CD Rs and re q uire s
th e

1
  Re fe re nce s to D Ire l
                          ate to th e dis ability program unde r titl  e IIof th e SocialSe curity Act, Fe de ral
Ol d-Age , Survivors , and D is abil  ity Ins urance Be ne fits . Re fe re nce s to SSIre l

                                                                                          ate to be ne fits paid
unde r titl e XVIof th e SocialSe curity Act, Suppl      e m e ntalSe curity Incom e for th e A ge d, Bl
 ind, or
D is able d.

2
  Th is CD R m andate w as re pe al     e d by P.L. 104-19 3 in Augus t 19 9 6 and re pl
                                                                                       ace d w ith an e l
                                                                                                        igibil
                                                                                                             ity
re de te rm ination re q uire m e nt for all18 ye ar-ol
                                                      ds.



                                                         1

Com m is s ione r of SocialSe curity to e ns ure th at funds m ade avail    able for
CD Rs are us e d, to th e gre ate s t e xte nt practicabl
                                                        e , to m axim ize th e
com bine d s avings in th e D I, SSI, M e dicare , and M e dicaid program s .

Prior to FY 19 9 6, SSA w as re porting its CD R re s u l ts unde r Se ction 221(i)(3)of th e
SocialSe curity A ct. Th is s e ction re q uire d th e Com m is s ione r of SocialSe curity to:

          “re port annual    ly to th e Com m itte e on Finance of th e Se nate and th e
          Com m itte e on W ay s and M e ans of th e H ous e of Re pre s e ntative s w ith
          re s pe ct to th e num be r of re vie w s of continuing dis abil   ity carrie d out
          . . ., th e num be r of s uch re vie w s w h ich re s ult in an initialte rm ination
          of be ne fits , th e num be r of re q ue s ts for re cons ide ration of s uch initial
          te rm ination or for a h e aring w ith re s pe ct to s uch te rm ination . . ., or
          both , and th e num be r of s uch initialte rm inations w h ich are
          ove rturne d as a re s ul  t of a re cons ide ration or h e aring.”

Th e Contract w ith A m e rica Advance m e nt A ct of 19 9 6 incre as e d th e am ount of
de tailto be re porte d, re q uiring th e Com m is s ione r of SocialSe curity to provide
annual  y 3 to Congre s s a re port on CD Rs w h ich incl
        l                                                    ude s :

      • th e am ount s pe nt on CD Rs in th e FY cove re d by th e re port, and th e num be r
        of re vie w s conducte d, by cate gory of re vie w ;
      • th e re s ults of th e CD Rs in te rm s of ce s s ations of be ne fits or de te rm inations
        of continuing e l         ity, by program ;and
                             igibil
      • th e e s tim ate d s avings ove r th e s h ort-, m e dium -, and long-te rm to th e D I,
        SSI, M e dicare , and M e dicaid program s from CD Rs w h ich re s u l     t in ce s s ations
        of be ne fits and th e e s tim ate d pre s e nt val ue of s uch s avings .

Anoth e r A ct, th e Pe rs onalRe s pons ibil   ity and W ork O pportunity Re concil    iation A ct
                             4
of 19 9 6 (P.L. 104-19 3), re q uire d additionalCD Rs and re de te rm inations re l        ate d to
th e SSIw ork l  oad. Unde r th is l e gis lation, SSA m us t re vie w : 1)al  lch ildre n w ith a
                                                                                                     5
dis abil
       ity bas e d on th e com parabl    e s e ve rity s tandard and/or m al adaptive be h avior;
2)al  l18 ye ar-ol ds us ing adul te l igibil ity crite ria;3)al  ll
                                                                   ow birth w e igh t babie s ;and
4)al  lch il
           dre n unde r age 18 at l   e as t e ve ry 3 ye ars if not pe rm ane ntly dis abl e d.
Th is A ct als o auth orize d an additional$150 m il       lion in 19 9 7 and $100 m il  lion in
19 9 8 for th e cos ts of proce s s ing CD Rs and re de te rm inations . (Se e A ppe ndix A for
a ch art s um m arizing th e above l   e gis l
                                             ation.)
3
    Th e re port is to be provide d at th e concl
                                                us ion of th e y e ar for FY s 19 9 6 th rough 2002.

4
 O fte n re fe rre d to as th e W e l
                                    fare Re form l
                                                 aw . Th e provis ions of th is l
                                                                                aw w e re to be initiate d by
SSA in FY 19 9 7.

5
 Th e le gis l
             ation e lim inate d th e us e of individualize d functionalas s e s s m e nts for ch il
                                                                                                   dre n and al  so
 im inate d re fe re nce to m al
el                               adaptive be h avior in th e pe rs onalbe h avior dom ain in s pe cifie d lis tings .



                                                           2

SSA is s ue d its FY 19 9 6 AnnualRe port on CD Rs on Se pte m be r 11, 19 9 7 (s e e
Appe ndix B for th e ful lre port). In th is re port, SSA s tate d th at th e A ge ncy
proce s s e d 566,000 CD Rs , w h ich incl ude d 49 8,400 pe riodic CD Rs pl    us about
67,600 w ork is s ue CD Rs .6 SSA h ad $260 m il      l
                                                      ion in appropriate d funds avail abl
                                                                                         e
for conducting pe riodic CD Rs in FY 19 9 6.

SCO PE AND M ETH O D O LO GY

O ur obje ctive w as to re vie w SSA ’   s FY 19 9 6 AnnualRe port on CD Rs to de te rm ine
w h e th e r SSA m e t th e CD R re porting re q uire m e nts s e t forth by Congre s s .

To accom pl
          is h our obje ctive , w e :

    • re vie w e d th e FY 19 9 5 AnnualRe port on CD Rs to de te rm ine w h at SSA h ad
      re porte d to Congre s s pre vious l
                                         y;

    • re vie w e d th e FY 19 9 6 AnnualRe port on CD Rs , com paring th e inform ation
      provide d to th e inform ation re q uire d by Congre s s in th e Contract w ith
      A m e rica Advance m e nt A ct of 19 9 6;

    • re vie w e d re l
                      ate d CD R l
                                 e gis l
                                       ation and atte nde d a congre s s ionalh e aring
      w h e re SSA provide d te s tim ony on th is is s ue ;

    • inte rvie w e d SSA officials to de te rm ine : 1)SSA ’
                                                            s inte rpre tation of th e
      l      ative re porting m andate ;2)w h at inform ation w as re adil
       e gis l                                                              y availabl e to
      SSA in pre paring th e A nnualRe port;and 3)any re as ons for not incl        uding
      ce rtain inform ation in th e A nnualRe port;and

    • anal yze d oth e r SSA and Ge ne ralA ccounting O ffice (GA O )re ports to
      de te rm ine w h at additionalCD R inform ation h ad be e n provide d e l
                                                                              s e w h e re .

O ur re vie w did not incl  ude a ve rification of th e figure s re porte d by SSA in its
FY 19 9 6 AnnualRe port on CD Rs . A re vie w of th e num be r of CD Rs re porte d as
conducte d and th e as s ociate d cos t w as not incl    ude d unde r th e obje ctive of th is
re vie w . Th e s e are as w il
                              lbe th e s ubje ct of future audits . W e conducte d our
audit during Se pte m be r and O ctobe r 19 9 7 in Bal    tim ore , M aryland, and in
Bos ton, M as s ach us e tts . O ur audit w as conducte d in accordance w ith ge ne ral     ly
acce pte d gove rnm e nt auditing s tandards .




6
  Pe riodic CD Rs re l
                     ate to re vie w s pe rform e d from tim e to tim e to de te rm ine if th e individual
continue s to be dis able d. W ork is s ue CD Rs re l  ate to re vie w s initiate d w h e n w ork activity is
re porte d by an individual .



                                                          3

                       R E S U LTS O F R E VIE W


A M O UNT SPENT CO NDUCTING CD Rs

Th e FY 19 9 6 AnnualRe port on CD Rs did not dis cl         os e th e am ount of funds
e xpe nde d by SSA during th e ye ar to pe rform th e CD Rs . Th e Contract w ith
A m e rica Advance m e nt A ct s pe cificall
                                           y re q uire s th e cos t of CD Rs pe rform e d to be
re porte d by th e Com m is s ione r of SocialSe curity. Th e A nnualRe port onl      y
m e ntione d th e $260 m illion appropriate d by Congre s s for CD Rs in FY 19 9 6.
W ith out an actuale xpe nditure am ount, th e re l    ations h ip be tw e e n SSA ’
                                                                                   s ne e ds and
th e funding provide d by Congre s s is uncl    e ar.

O n Se pte m be r 25, 19 9 7, SSA h ad anoth e r opportunity to provide th is inform ation
during th e A ge ncy’  s te s tim ony be fore th e H ous e W ay s and M e ans Com m itte e ,
Subcom m itte e on SocialSe curity. Th e purpos e of th e h e aring w as to dis cus s th e
s tatus of SSA ’  s CD R w ork . A l th ough w e do not cons ide r th is te s tim ony to be th e
e q uivale nt of th e annualre porting re q uire m e nt, th e inform ation provide d by SSA
during th is h e aring provide s s om e indication of th e inform ation SSA w as capabl      e
of incl uding in th e A nnualRe port on CD Rs . H ow e ve r, e ve n w ith th is additional
opportunity, SSA did not m e ntion th e CD R cos ts for FY 19 9 6 during its te s tim ony.
D uring th e s am e h e aring, GA O dis cl os e d th at SSA s pe nt $207 m il lion on CD Rs in
            7
FY 19 9 6.

Al th ough th e $207 m il   l
                            ion in FY 19 9 6 CD R cos ts w as pre s e nte d in draft copie s of
th e A nnualRe port, SSA official       s told us th at a las t m inute e rror le d to th e
om is s ion of th is inform ation from th e finalre port. SSA official      s re s pons ibl e for
com pil  ing th e re port agre e d th e inform ation s h ould h ave be e n in th e FY 19 9 6
AnnualRe port and e xpe ct s uch an om is s ion w il      lnot occur in th e FY 19 9 7 Annual
Re port.

CD R RESULTS BY PRO GRA M

Th e Contract w ith A m e rica Advance m e nt A ct of 19 9 6 re q uire s th e Com m is s ione r
of SocialSe curity to provide th e re s u l ts of th e CD Rs in te rm s of ce s s ations of
be ne fits or de te rm inations of continuing e ligibility, by program . W e inte rpre t th e
us e of th e te rm program to re q uire s e parate re porting of D Iand SSIce s s ations .

7
 Se e GAO /T-H EH S-9 7-222, SocialSe curity D is abil   ity: SSA Is M ak ing Progre s s Tow ard El
                                                                                                  im inating
Continuing D is abil
                   ity Re vie w Back l
                                     ogs , Se pte m be r 25, 19 9 7.



                                                     4

H ow e ve r, in its FY 19 9 6 AnnualRe port on CD Rs , SSA provide d onl              y aggre gate
inform ation re l   ate d to totalce s s ations and continuing e l      igibil
                                                                             ity. Th e A nnual
Re port note d th at 162,9 00 SSICD Rs w e re pe rform e d out of a totalof 566,000
CD Rs conducte d. 8 Th e re m aining s tatis tics , s uch as th e num be r of initial
ce s s ations , th e re s u l
                            ts of re cons ide rations and appe al    s , and th e finalte rm inations ,
groupe d both SSIand D Icas e s toge th e r. W h il         e th is form at for re porting w as
acce ptabl   e prior to FY 19 9 6, th e ne w re porting re q uire m e nts re q uire d gre ate r
de tail . In fact, th e attach m e nt to th e FY 19 9 6 AnnualRe port on CD Rs addre s s ing
“W ork l  oads Proce s s e d”w as ide nticalin form at to th e FY 19 9 5 AnnualRe port on
CD Rs attach m e nt, providing onl        y aggre gate initialce s s ations , re cons ide rations ,
and appe al    s , de s pite th e ne w re porting re q uire m e nts for FY 19 9 6. Th e probl    em
w ith re porting onl     y aggre gate CD R s tatis tics is th at it doe s not al   low a
de te rm ination of w h e th e r th e ce s s ation rate w as h igh e r or l ow e r by type of
dis abil ity program .

Th e onl   y program -s pe cific inform ation re l       ate d to e ith e r ce s s ations or continue d
el igibility in th e FY 19 9 6 AnnualRe port on CD Rs re l             ate d to a s m al    ls e gm e nt of SSI
CD Rs conducte d. H e re SSA note d th at 5,700 initialde te rm inations w e re m ade for
low birth w e igh t ch il     dre n, of w h ich 3,200 w e re ce s s ations . Th is s pe cific bre ak out
is m ore inform ative th an th e oth e r s tatis tics . H ow e ve r, unl          ik e th e aggre gate
inform ation pre s e nte d e l    s e w h e re in th e re port, no inform ation w as provide d on
w h e th e r th e s e ce s s ations w e re be ing re cons ide re d or appe al       e d. Nor w e re th e
e s tim ate d num be r of l     ow birth w e igh t finalte rm inations afte r al        lappe al  s provide d.

SSA provide d additionalinform ation in its Septe m be r 19 9 7 te s tim ony, noting both
th e initialce s s ations and e s tim ate d finalte rm inations b y D I, SSI, and concurre nt
program s . W e as k e d SSA official     s w h y th e ce s s ation and te rm ination s tatis tics
w e re not provide d in th e FY 19 9 6 AnnualRe port. SSA official             s re s pons ibl e for
pre paring th e re port tol  d us th e y re q ue s te d th is inform ation from th e office s
providing inform ation, but onl      y aggre gate num be rs w e re provide d. W e re vie w e d
th e m e m orandum s e nt out to th e various com pone nts re q ue s ting input and found
th e m e m orandum did re q ue s t program -s pe cific CD R re s u l    ts at th e initiall e ve l
                                                                                                 ,
re cons ide ration l e ve l
                          , and h e aring le ve l. In tabl   e 1, w e provide a de tail  e d bre ak out
of th e CD R re s u l ts by program bas e d on our dis cus s ions w ith SSA official          s.

Tabl
   e 1: Pe riodic CD R Cate gory Bre ak out by Program

                                    D I/Concurre nt              SSI Program                  Total
            Cate gory                   Program
    TotalCD Rs                               341,064                      157,381              49 8,445
    InitialCe s s ations                      24,875                       17,035               41,9 10
      Pe rce nt of Total                        7.3%                       10.8%                  8.4%

8
    Th e 566,000 totalCD Rs conducte d incl
                                          ude s approxim ate l
                                                             y 67,600 w ork CD Rs .



                                                      5
 Es tim ate d Final
 Te rm inations                                 14,500                     12,000   26,500

Note : Concurre nt re fe rs to individual
                                        s re ce iving both D Iand SSIbe ne fits .




                                                      6

A s a re s u l
             t of our inte rvie w s w ith oth e r Age ncy official  s , w e found th at program -
s pe cific CD R re s u l
                       ts are re gul  arl
                                        y colle cte d. A s pre vious l y note d, s om e program ­
s pe cific inform ation w as re porte d to Congre s s by SSA in its te s tim ony. W e al         so
found anoth e r e xam pl    e of a program -s pe cific CD R bre ak out in SSA ’    s 19 9 7 Annual
Re port of th e Suppl    e m e ntalSe curity Incom e Program .9 SSA official       s s aid th e y
h ope to provide CD R re s u l    ts by program in th e FY 19 9 7 AnnualRe port on CD Rs .
Th e official s als o e xpe cte d to re form at th e attach m e nt to th e FY 19 9 7 Annual
Re port addre s s ing “  W ork l oads Proce s s e d.” Th e attach m e nt w as not update d from
th e FY 19 9 5 AnnualRe port on CD Rs , th e l       as t re porting pe riod be fore th e ne w
program -s pe cific re porting re q uire m e nt cam e into e ffe ct.

Figure 1: InitialCe s s ation Rate s by Program

                                                                   H ad th e program -s pe cific
                        DI / Concurrent                            ce s s ation and te rm ination
                       Initial Cessations                          s tatis tics b e e n incl ude d in
                                                                   th e A nnualRe port on
                                                                   CD Rs , Congre s s w oul     d
                                           Initial                 h ave be e n provide d w ith a
                                         Cessations
                                                                   be tte r unde rs tanding of th e
                                             7%
              Benefits                                             CD R w ork . O ur ow n
            Continued                                              anal  y s is of th e CD R data
                93%
                                                                   s h ow s a diffe re nce
                                                                   be tw e e n th e D Iand SSI
                                                                   CD R initialce s s ation rate s
                     SSI Initial Cessations                        (s e e figure 1). A l   th ough
                                                                   th e e xpe cte d te rm ination
                                                                   rate s for e ach program m ay
                                           Initial
                                                                   not al   w ays be
                                         Cessations                re pre s e ntative of future
                                            11%                    te rm ination rate s , by
              Benefits                                             providing s uch inform ation
             Continued                                             to Congre s s , SSA coul      d
                89%
                                                                   as s is t Congre s s in
                                                                   ide ntifying th os e are as
                                                                   w h e re SSA re s ource s are
                                                                   e xpe cte d to h ave th e
gre ate s t be ne fit. Th e Congre s s h as s h ow n an incre as ing inte re s t in SSA ’   s
conducting CD Rs , as d e m ons trate d by th e $4 bil    l
                                                          ion in auth orize d CD R funding



9
  Th is M ay 19 9 7 SSIA nnualRe port provide d a tabl     e s h ow ing th e re s ul
                                                                                   ts of SSIcontinuing dis abil
                                                                                                              ity
                                                e ve lof de cis ion, and re vie w cate gory. Th is s e parate
m e dicalre vie w s by FY of initialde cis ion, l
re port w as m andate d by P.L. 104-19 3.



                                                        7

be tw e e n FYs 19 9 6 and 2002. A ccordingl y, additionalCD R data by program coul
                                                                                  d
h elp both SSA and Congre s s be tte r focus th e us e of th e s e funds .




                                         8

O TH ER USEFULINFO RM A TIO N FO R CO NSID ERA TIO N

Al th ough SSA ’     s FY 19 9 6 AnnualRe port on CD Rs provide d us e fulinform ation to
Congre s s conce rning th e s tatus of CD Rs , additionalinform ation re adil           y avail
                                                                                              abl
                                                                                                e to
SSA coul     d h ave be e n incl                                                 ne s s . For
                                  ude d in th e re port to incre as e its us e ful
e xam pl  e , s pe cific cos t s avings inform ation by program w oul       d h ave provide d
Congre s s w ith a toolto m e as ure th e cos ts ve rs us b e ne fits of th e ongoing CD R
w ork . In addition, in th e FY 19 9 6 AnnualRe port, SSA coul             d h ave gone furth e r in
dis clos ing h ow SSA w as m e e ting th e SSICD R w ork l        oads m andate d by Congre s s .
O th e r us e fuldis cl os ure s of CD R inform ation coul   d h ave incl  ude d: 1) th e num be r
of CD Rs conducte d by m ailve rs us ful        lm e dicalre vie w s and 2) th e num be r of CD Rs
re m aining in th e back l   og. Th is inform ation w oul    d h ave provide d Congre s s w ith
m ore inform ation on th e te ch niq ue s util     ize d by SSA in e l im inating th e CD R
back l og, as w e l   las th e s tatus of th e back l  og.

Program Cos t Savings

W h il
     e SSA pre s e nte d program cos t s avings in its FY 19 9 5 AnnualRe port on CD Rs ,
th e A ge ncy ch os e not to h igh l
                                   igh t th e s e s avings in its FY 19 9 6 AnnualRe port. In
its FY 19 9 5 AnnualRe port on CD Rs , SSA s tate d:

       “W h il
             e w e pre vious l y re al ize d $3 in D is ability Ins urance program
       s avings for e ach $1 in adm inis trative cos ts for our l      abor-inte ns ive
       CD R proce s s , th e m aile r proce s s h as re s ul
                                                           te d in a doubl ing of th is
       ratio to approxim ate l  y $6:$1.”

SSA did not m ak e a s im il   ar dol l
                                      ar for dol l
                                                 ar com paris on in its FY 19 9 6 Annual
Re port on CD Rs , but ins te ad note d “. . . th e m ail e r proce s s re s u l
                                                                               te d in an e ve n
m ore favorabl   e ratio of s avings to cos ts .” W ith out citing th e e arl    ie r s avings , th e
re ade r m ay not unde rs tand SSA ’    s curre nt cl
                                                    aim . SSA m ade a s im il      ar cl aim in its
Se pte m be r 19 9 7 te s tim ony be fore Congre s s , noting “ . . . program s avings w e re
far in e xce s s of adm inis trative cos ts .” An actualratio w oul     d h ave be e n m ore
us e fulto Congre s s by providing a cos t-be ne fit m e as ure m e nt for th e CD R program .

An anal     y s is of th e inform ation al
                                         re ady provide d by SSA in its FY 19 9 6 Annual
Re port on CD Rs s h ow s th at: 1)approxim ate l         y $2.5 bil   l
                                                                       ion in life tim e s avings
re s u l
       te d from th e CD Rs pe rform e d, 2)$260 m il       lion w as appropriate d for th e s e
CD Rs , and 3)an e s tim ate d 26,500 re cipie nts w il       lh ave th e ir be ne fits te rm inate d.
Us ing th is bas ic inform ation, w ith out s pe cifying th e s avings by program , one
concl   ude s th at e ve ry $1 in CD R adm inis trative cos ts re s u l  te d in al  m os t $10 in
s avings . In addition, e ve ry dis abil   ity be ne fit ce as e d re duce d Gove rnm e nt
paym e nts to th at individualby approxim ate l        y $9 4,000. W h e n one cons ide rs th at
actual   ly




                                                   9

onl y $207 m il lion w as s pe nt on CD Rs in FY 19 9 6 (not th e full$260 m il  lion
appropriate d), th e s avings for e ve ry dol
                                            lar s pe nt on CD Rs is clos e r to $12 for
e ve ry dol
          lar s pe nt.

W h e n w e as k e d SSA official    s w h y s im il ar program s avings inform ation w as not
incl ude d in th e re port, th e official    s s tate d th at th e FY 19 9 6 program cos t s avings
w e re not cons ide re d to be re pre s e ntative of future s avings . An SSA actuary note d
th at th e le ve lof s avings w as e xpe cte d to be l         ow e r in th e future . Anoth e r SSA
officialattribute d th e h igh l  e ve lof curre nt cos t s avings to SSA ’          s atte m pt to targe t
th os e cate gorie s w h e re ce s s ation is m os t l   ik e ly - a group th at w il  ldim inis h in
num be r ove r tim e . None th e l   e s s , th e actuary agre e d th at a q uick cal      cul ation by a
re ade r of th e FY 19 9 6 AnnualRe port w oul           dl   e ave th e im pre s s ion th at cos t s avings
w e re $10-$12 pe r $1 s pe nt on CD R adm inis trative cos ts . SSA official                 s belie ve
s uch a cal   cul ation can be m is l  e ading. H ow e ve r, give n th e fact th at th e cos t
s avings can al    re ady be cal cul  ate d from e xis ting AnnualRe port inform ation, w e
be lie ve it is e ve n m ore im portant for SSA to pre s e nt a cos t s avings ratio w ith
s ufficie nt cave ats s o th at a re ade r w il    lnot be m is l   e d.

SSICD R and Re de te rm ination W ork l
                                      oad

Since 19 9 4, l   e gis l
                        ation h as m andate d th at additionalCD Rs and re de te rm inations
be adde d to SSA ’      s e xis ting w ork l
                                           oad. In its FY 19 9 6 AnnualRe port on CD Rs ,
SSA coul     d h ave re porte d on th e progre s s of e ach of th e s e CD R and
re de te rm ination w ork l  oads . Th e FY 19 9 6 AnnualRe port dis cl      os e d th e s tatus of
th e CD Rs on l    ow birth w e igh t babie s ;h ow e ve r, no inform ation w as provide d on
w h e th e r any w ork h ad be gun on th e oth e r re vie w cate gorie s . For e xam pl      e , during
FY 19 9 6, SSA pl      anne d to conduct approxim ate l      y 18,000 CD Rs on individual        s
attaining th e age of 18. H ow e ve r, no m e ntion of th e re s u l     ts of th is w ork is
incl ude d in th e FY 19 9 6 AnnualRe port. W h e th e r or not SSA m ade progre s s in
re vie w ing 18 ye ar-ol    ds and oth e r re q uire d cate gorie s during FY 19 9 6 w oul    d h ave
be e n us e fulinform ation to re port to Congre s s .

SSA h as s e parate l  y cl as s ifie d its re vie w s into tw o cl  e ar cate gorie s : 1)CD Rs and
re de te rm inations re portabl    e in th e A nnualRe port on CD Rs and 2)ce rtain
re de te rm inations unde r P.L. 104-19 3 not re portabl           e in th e A nnualRe port on CD Rs .
SSA doe s not pl     an to incl   ude e l igibility re de te rm inations for ch il dre n cons ide re d
dis abl e d bas e d on th e com parabl      e s e ve rity s tandard and/or m al   adaptive be h avior in
its A nnualRe port. Th is dis tinction did not affe ct th e FY 19 9 6 AnnualRe port, but
w illbe re l e vant in th e FY 19 9 7 and FY 19 9 8 AnnualRe ports . A l             th ough th e s e
ch ildh ood e l igibil
                     ity re de te rm inations com e out of s e parate funding, th is m one y
($150 m il   lion in FY 19 9 7 and $100 m il        lion in FY 19 9 8)can al    s o be us e d for oth e r
pe riodic CD Rs . Al                                l
                       s o, th e im pact of ch i dh ood re de te rm inations on SSA ’        s w ork l oad
is s ignificant and h as b e e n of inte re s t to Congre s s .




                                                    10

SSA official    s told us th e s e one -tim e ch ildh ood e ligibility re de te rm inations are not
th e s am e as th e ongoing CD Rs and, th e re fore , th e y are accounte d for s e parate l       y.
Th is s e parate accounting m ay be appropriate for budge tary re as ons , but s e parate
accounting doe s not m e an th e inform ation cannot be note d in th e A nnualRe ports
on CD Rs . SSA official     s us e d th is s am e argum e nt w h e n om itting from th e FY 19 9 6
AnnualRe port th e re s u l   ts of m e dicalde te rm inations conducte d on curre nt
be ne ficiarie s for w h om D A A is a contributing factor m ate rialto th e finding of th e ir
dis ability. 10 Th is D A A w ork cons um e d re s ource s in FY 19 9 6 th at oth e rw is e coul    d
h ave be e n dire cte d tow ard oth e r CD Rs . SSA ’     s O ffice of Budge t s tate d th at th e
D A A w ork w as not part of th e $4 bil      lion in pe riodic CD R funding s o it w as not
appropriate to incl     ude th is inform ation in th e A nnualRe port on CD Rs . H ow e ve r,
th e A nnualRe port on CD Rs incl       ude s th e num be r of w ork is s ue CD Rs , a group of
re vie w s th at are not part of th e $4 bil    l
                                                ion in pe riodic CD R funding. Jus t as th e
w ork is s ue CD Rs provide d additionalback ground on SSA ’              s w ork load, inform ation
on th e D A A re vie w s in FY 19 9 6 coul     d h ave s e rve d th e s am e purpos e .11 In th e
s am e w ay, incl   us ion of th e ch il
                                       dh ood re de te rm ination re s u l ts in th e FY 19 9 7 and
FY 19 9 8 AnnualRe ports on CD Rs m ay be us e fulinform ation for Congre s s .

SSA official   s told us th at th e y pl
                                       an to provide additionalSSICD R bre ak outs in th e
FY 19 9 7 AnnualRe port on CD Rs , s im il   ar to th e l ow birth w e igh t CD R inform ation
incl ude d in th e FY 19 9 6 AnnualRe port. H ow e ve r, SSA official      s w e re not
re ce ptive to providing additionalinform ation re l    ate d to th e ch il
                                                                          dh ood e ligibil
                                                                                         ity
re de te rm inations bas e d on th e com parabl e s e ve rity s tandard and/or m al  adaptive
be h avior.

M ail
    e r Ve rs us Ful
                   lM e dicalCD Rs

SSA ’ s FY 19 9 6 AnnualRe port on CD Rs note d th at 49 8,400 pe riodic CD Rs w e re
proce s s e d th rough th e CD R m ail   e r proce s s and/or a m e dicalre vie w . H ow e ve r, th e
re port doe s not note th e num be r of CD R m ail       e rs ve rs us fullm e dicalre vie w s , e ve n
th ough th e A ge ncy cl   aim s th e CD R m ail  e r h as prove n to be an “. . . e fficie nt and
cos t-e ffe ctive m e ans for ide ntifying be ne ficiarie s w h o . . . do not re q uire ful   l
m e dicalre vie w s . . . .” Bas e d on SSA ’    s original7-ye ar pl    an for e lim inating th e
CD R back l   og, th e num be r of CD Rs conducte d th rough th e m ail        e r proce s s w as
anticipate d to be about 50 pe rce nt of al       lCD Rs pe rform e d (s e e tabl   e 2 and figure
2). A l th ough th is pl  an is b e ing m odifie d to incorporate th e ne w
CD R/re de te rm ination w ork l  oads m andate d by P.L. 104-19 3, th e m ail        e r proce s s is
e xpe cte d to pl  ay a large rol  e in l
                                        im iting th e cos t of th e CD R w ork w h il   e incre as ing
th e num be r of CD Rs pe rform e d.


10
   A pproxim ate l y 209 ,000 be ne ficiarie s w e re notifie d during FY 19 9 6 th at th e ir be ne fits w e re be ing
re cons ide re d unde r P.L. 104-121.
11
   D A A re vie w s w e re al
                            s o pe rform e d in FY 19 9 7.



                                                          11

Tabl
   e 2: CD R M e th od by Program

                                             D I /Concurre nt            SSI Program                     Total
        Cate gory                                 Program
 TotalCD Rs                                           341,064                      157,381               49 8,445
  FullM e dicalRe vie w                               149 ,326                     101,09 1              250,417
   Pe rce nt of Total                                   43.8%                       64.2%                  50.2%
  M ail
      e r (1)                                         19 1,738                      56,29 0              248,028
   Pe rce nt of Total                                   56.2%                       35.8%                  49 .8%

Note : (1) Th e s e m ail    e rs l
                                  e d to th e de fe rralof a ful lm e dicalre vie w . M aile rs th at l
                                                                                                      e d to a ful l
m e dicalre vie w are s h ow n unde r th e “      FullM e dicalRe vie w ”total   s above . M ail e rs are targe te d at
re cipie nts w h e re th e re is a low l      ih ood of be ne fit te rm ination.
                                         ik e l

Figure 2: CD R M ail
                   e rs Com pare d to TotalCD Rs (FY 19 9 6-2002)


                      1600
                      1400
                      1200
  CDRs in Thousands




                      1000
                                                                                                   Mailers
                      800
                                                                                                   Total
                      600
                      400
                      200
                        0
                             FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002




Note : Th e num be r of m ail
                            e rs for FY 19 9 7 forw ard are SSA’  s e s tim ate s bas e d on its original
FY 19 9 6-2002 w ork load pl an. Th is plan is curre ntly be ing update d by SSA.

In de te rm ining SSA ’  s abil ity to m e e t its CD R goals , th e re ade r’
                                                                             s unde rs tanding of
h ow SSA conducts a CD R can be jus t as re l          e vant as th e totalnum be r of CD Rs
pe rform e d. For e xam pl   e , k now ing th e num be r of ful  lm e dicalre vie w s can put th e
initialce s s ation num be rs in pe rs pe ctive . A l th ough w e note d e arl ie r (in figure 1)
th e diffe re nce be tw e e n D I/concurre nt and SSIrate s of initialce s s ation (7 pe rce nt
and 11 pe rce nt, re s pe ctive l  y), k now ing th e num be r of ful  lm e dicalre vie w s
pre s e nts a diffe re nt picture . Th e initialce s s ation rate w h e n cons ide ring onl  y ful
                                                                                                 l
m e dicalre vie w s is 17 pe rce nt for both D I/concurre nt and SSI. Unde rs tanding th e




                                                            12

proportion of CD R m ail        e rs to totalCD Rs conducte d can al    so h el
                                                                              p th e re ade r to
be tte r inte rpre t th e e s tim ate d program s avings ratio s ince th e adm inis trative cos ts
as s ociate d w ith a CD R m ail                    ow e r th an for a ful
                                      e r are m uch l                    lm e dicalre vie w .

Additionalinform ation re l     ate d to th e s pe cific q ue s tions as k e d on a CD R m ail
                                                                                             e r, as
w ellas th e proce s s its e lf, coul  d al s o be note d w ith in th e A nnualRe port on CD Rs .
For e xam pl  e, a lis ting of th e CD R m ail    e r q ue s tions or a diagram of th e CD R
proce s s (s e e figure 3)w oul    d h elp th e re ade r to unde rs tand th e nature of th e CD R
m ail
    e rs . Give n th e m ail e r’s im portance in e l     im inating th e CD R back log, a ful
                                                                                             l
unde rs tanding of th e CD R m ail     e r is e s s e ntial.

Figure 3: CD R Eval
                  uation Proce s s Sum m ary Ch art


                                  Engaging in
                                    SGA?                      Yes                    Cease
                                                                                     Benefits
                                             No


                                   Medical
                    Yes       Improvement (MI)?          No

   Is MI Related                                                    Does Exception
    to Ability to                       No                           to MI Apply?                 No
       Work?
                                                              Yes
                                 Meets/Equals
                    Yes          Ability to Work                    No                 Continue
                                   Criteria?                                           Benefits




                                      Yes




                                     Cease
                                     Benefits



Note : SGA = Subs tantialGainfulA ctivity (e arnings ove r $500 pe r m onth ). SGA is d e fine d by a
h igh e r l                               s disabl
          e ve lof e arnings for individual              indne s s .
                                                 e d by bl




                                                   13

Re m aining CD R Back l
                      og

Since SSA h as s tate d th at it pl  ans to e lim inate th e CD R back l   og by th e Y e ar 2002,
a s tatus of th e CD R back l  og and SSA ’   s progre s s in e l im inating th is back l og w oul    d
be us e fulto Congre s s . A l th ough SSA did not provide any inform ation re l            ate d to
th is b ack l
            og in its FY 19 9 6 AnnualRe port on CD Rs , SSA official          s e arlie r e s tim ate d
th at th e back l
                og in FY 19 9 6 incl   ude d 1.4 m il l
                                                      ion D Ibe ne ficiarie s and 1.6 m il       l
                                                                                                 ion
                     12
SSIbe ne ficiarie s . Pre s e nting an e s tim ate d back l og figure in th e A nnualRe port
w oul  d provide th e re ade r w ith s om e indication of SSA ’     s progre s s to date . SSA ’     s
continuing pl  ans for addre s s ing th is back l og coul  d al s o be dis cus s e d in conjunction
                 og data. SSA official
w ith th is back l                         s agre e d th at th is inform ation coul    d be us e ful
to Congre s s , but note d th at de te rm ining th e back l og coul    d be probl  e m atic s ince a
num be r of incons is te nt de finitions of th e back l og are curre ntl   y be ing us e d.




12
  GAO concl  ude d th e num be r w as h igh e r - approxim ate l
                                                               y 2.4 m il
                                                                        lion D Ibe ne ficiarie s and
1.9 m il
       lion SSIre cipie nts . GA O num be rs incl  ude d groups not counte d in SSA ’   s cal culations .



                                                       14

                       RECO M M END A TIO NS


In pre paring future A nnualRe ports on CD Rs , w e re com m e nd th at SSA :

   1. incl
         ude s pe cific inform ation re l
                                        ate d to th e annualcos t of conducting th e
      CD Rs .

   2. provide m ore s pe cific inform ation on th e s tatus of CD R ce s s ations and
      continue d e l    ity, incl
                   igibil        uding th e s pe cific num be r of pe riodic D I, SSI, and
      concurre nt CD Rs pe rform e d, initiall
                                             y ce as e d, re cons ide re d and appe ale d.

   3. cons ide r incl uding oth e r inform ation w h ich w oul   d be us e fulto Congre s s in
       th e A nnualRe port on CD Rs , s uch as program cos t s avings ratios , th e s tatus
       of SSICD Rs , th e num be r of CD R m ail   e rs us e d, and CD R back l og
   inform ation,
       e ve n th ough th is data is not s pe cifical
                                                   ly re q uire d.

AGENCY CO M M ENTS A N D O IG RESPO NSE

In re s pons e to our draft re port, SSA agre e d w ith our re com m e ndations . In
th is re gard, SSA agre e d th at s pe cific inform ation re l  ate d to th e cos t of
conducting CD Rs s h ou l    d h ave be e n include d in th e FY 19 9 6 AnnualRe port
on CD Rs . A l  s o, in pre paring future A nnualRe ports on CD Rs , SSA p l        ans to
provide m ore s pe cific data on th e s tatus of CD R ce s s ations and oth e r
inform ation us e fulto Congre s s . SSA ’    s w ritte n re s pons e is include d in its
e ntire ty as A ppe ndix C. In addition to re s ponding to our re com m e ndations ,
SSA s ugge s te d a fe w te ch nicalch ange s . W e agre e d w ith s om e of th e s e
te ch nicalch ange s and m odifie d th e re port as appropriate .




                                             15

A PPEND ICES

                                                                                                           A PPEND IX A



    SUM M ARY O F RELEVANT LEGISLA TIO N


                                 D A TE                                                                     PRO GRA M
    LEGISLA TIO N              ENACTED                            PRO VISIO NS                              INVO LVED
Se ction 221(i)of th e      A ct am e nde d on   1) Re port to Congre s s annual
                                                                               ly on th e                        DI
SocialSe curity Act         June 9 , 19 80 by       re s u l
                                                           ts of pe riodic continuing
                            P.L. 9 6-265;on         dis abil ity re vie w s (CDR) re q uire d to
                            January 12, 19 83       be pe rform e d on a be ne ficiary at l       e as t
                            by P.L. 9 7-455,        once e ve ry 3 ye ars , appl    icabl  e onl   y to
                            and on Nove m be r      th e e xte nt th at s ufficie nt pe rs onne l
                            10, 19 88 by P.L.       and proce s s ing tim e are avail      abl e.
                            100-647              2) Re port to Congre s s annual       ly w ith                  DI
                                                    re s pe ct to de te rm inations th at th e
                                                    Com m is s ione r h as m ade , on a State -
                                                    by-State bas is , to w aive th e
                                                    re q uire m e nt th at th e continuing
                                                    eligibil ity of dis abil  ity beneficiarie s
                                                    w ith non-pe rm ane nt dis abil     itie s b e
                                                    re vie w e d at l e as t once e ve ry 3 ye ars .

SocialSe curity             August 19 9 4        1) Conduct m e dicalre vie w s on at l
                                                                                      e as t                    SSI
Inde pe nde nce and                                 one -th ird of individual s attaining age
Program Im prove m e nts                            18 e ach y e ar during FYs 19 9 6
A ct of 19 9 4 (P.L. 103-                           th rough 19 9 8. Re port to Congre s s
29 6)                                               b y O ctobe r 1, 19 9 8. (Note A )
                                                 2) Conduct at l   e as t 100,000 CDRs                          SSI
                                                    annual  ly on SSI re cipie nts for th e
                                                    pe riod O ctobe r 19 9 5 th rough
                                                    Se pte m be r 19 9 8. Re port to
                                                    Congre s s b y O ctobe r 1, 19 9 8.

Contract w ith A m e rica   M arch 19 9 6        1) Conduct re de te rm inations by                            D I/SSI
Advance m e nt A ct of                              January 1, 19 9 7 for be ne ficiarie s for
19 9 6 (P.L. 104-121)                               w h om drug addiction and/or
(Note B)                                            alcoh ol  is m is a contributing factor
                                                    m ate rialto th e finding of dis abil    ity
                                                    and w h o tim e l  y appe al e d th e ir                   D I/SSI
                                                    te rm ination bas e d on D A A .
                                                 2) Re port to Congre s s annual       l
                                                                                       y for FY s
                                                    19 9 6 th rough 2002 on th e am ount
                                                    of m one y s pe nt on CDRs, th e num be r
                                                    of re vie w s conducte d by cate gory,
                                                    th e re s u lts of s uch re vie w s by
                                                    program and th e e s tim ate d savings
                                                    by program ove r th e s h ort-, m e dium -
                                                    and l  ong-te rm .




                                                     A -1

                                    D A TE                                                                     PRO GRA M
      LEGISLA TIO N               ENACTED                              PRO VISIO NS                            INVO LVED
 Pe rs onalRe s pons ibil
                        ity    August 19 9 6          1) Re de te rm ine e l
                                                                           igibil
                                                                                ity for ch il
                                                                                            dre n                 SSI
 and W ork O pportunity                                  cons ide re d dis abl  e d bas e d on th e
 Re conciliation A ct of                                 com parabl   e s e ve rity s tandard and/or
 19 9 6 (P.L. 104-19 3)                                  m al adaptive be h avior. (Note D )
 (Note C)                                             2) Conduct CDRs once eve ry 3 ye ars for                    SSI
                                                         re cipie nts unde r age 18 w ith
                                                         non-pe rm ane nt dis abil    itie s .
                                                      3) Conduct CDRs not l         ate r th an                   SSI
                                                         12 m onth s afte r birth for l      ow birth
                                                         w e igh t babie s . (Note D )
                                                      4) Re de te rm ine e ligibil ity during th e                SSI
                                                         individual  s 18th y e ar us ing th e adul   t
                                                         initiale ligibil
                                                                        ity crite ria. (Note D )

 Balance d Budge t A ct of     August 19 9 7          1) Exte nds curre nt 12-m onth pe riod to                   SSI
 19 9 7 (P.L. 105-33)                                       18 m onth s for re de te rm ining th e
                                                            dis abil ity of ch ildre n unde r age
                                                            18 unde r th e ne w com parabl        e
                                                      s e ve rity
                                                            s tandard and/or m al     adaptive be h avior
                                                            s tandards.                                           SSI
                                                      2) Pe rm its SSA to s ch e dul       e a CDR for
                                                            low birth w e igh t babie s at a date
                                                            afte r th e firs t birth day if th e
                                                            Com m is s ione r de te rm ine s th e
                                                            im pairm e nt is not e xpe cte d to
                                                            im prove w ith in 12 m onth s of th e                 SSI
                                                            ch il d’s birth .
                                                      3) Provide s SSA w ith th e auth ority to
                                                            m ak e re de te rm inations of dis abl   ed
                                                            ch il dh ood re cipie nts w h o attain age
                                                            18, us ing th e adul     teligibility crite ria,
                                                            m ore th an 1 ye ar afte r th e date s uch
                                                            re cipie nt attains age 18.

Note s :
              A ) Re pe ale d by P.L. 104-19 3.
              B) Th e l       ation al
                        e gis l       s o auth orize d additionalfunds to be s pe nt on pe rform ing th e re q uire d
                  pe riodic CDRs in addition to th e norm alw ork l    oad: for Fis calY e ar (FY)19 9 6, $260 m il   ion;
                                                                                                                      l
                  for
                  FY 19 9 7, $360 m il    l
                                          ion;for FY 19 9 8, $570 m il    ion;and for FY 19 9 9 th ough FY 2002,
                                                                          l
                  $720 m il   l
                              ion annual  ly.
              C) Th e l e gis l
                              ation auth orize d $150 m il  lion in FY 19 9 7 and $100 m il l
                                                                                            ion in FY 19 9 8 in additional
                  funds to as s is t w ith th e s e additionalm andate s . Th e m andate d CDRs and re vie w s w e re to
                  be gin in FY 19 9 7.
              D ) Provis ions m odifie d by th e Bal   ance d Budge t A ct of 19 9 7.




                                                          A -2

                              A PPEND IX B



FY 19 9 6 ANNUALREPO RT O N CD RS

                    A PPEND IX C



SSA ’
    s CO M M ENTS
                                                                                  A PPEND IX D



            M A JO R REPO RT CO NTRIBUTO RS


O ffice of th e Ins pe ctor Ge ne ral

Roge r Norm and, D ire ctor, North e rn Program Audit D ivis ion

Rona Rus tigian, D e puty D ire ctor

W al
   te r Baye r, Auditor-in-Ch arge


For Additionalcopie s of th is re port, pl
 e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Pub l                  is t at (410)9 66-9 135. Re fe r to Com m on
                ic A ffairs Spe cial
Ide ntification Num be r A -01-9 7-9 1007.
                                                                   A PPEND IX E



             SSA O RGAN IZ A TIO NA LCH ART


[point ch art to D e puty Com m is s ione r for Le gis l
                                                       ation and
Congre s s ionalA ffairs ]
